I'

No. 19-6178
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BYRON BECTON,
Petitioner-Appellant,
v.
SHAWN PHILLIPS, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

FILED

Feb 27, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: STRANCH, Circuit Judge.
Byron Becton, a Tennessee prisoner proceeding pro se, appeals the district court’s
judgment denying his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Becton
has filed an application for a certificate of appealability (“COA”), see Fed. R. App. P. 22(b), and
a motion to proceed in forma pauperis on appeal, see Fed. R. App. P,. 24(a)(5).
In 2011, a Tennessee, jury convicted Becton of six counts of aggravated rape, in violation
of Tennessee Code Annotated § 39-13-502. The trial court merged three of those counts as
alternate theories and imposed an effective 65-year sentence. On direct appeal, Becton argued that
his convictions were supported by insufficient evidence and that the prosecutor committed
misconduct during closing arguments by commenting on his decision not to testify. The Tennessee
Court of Criminal Appeals affirmed, State v. Becton, No. W2011-02565-CCA-R3-CD, 2013 WL
967755, at *25 (Tenn. Crim. App. Mar. 11, 2013), partially abrogated by State v. Jackson, 444
S.W.3d 554, 591 n.50 (Tenn. 2014), and Becton did not seek review from the Tennessee Supreme
Court.
In May 2013, Becton filed a state petition for post-conviction relief, which he later
amended, alleging that trial counsel rendered ineffective assistance. The trial court denied the
petition after conducting an evidentiary hearing on the matter, and the Tennessee Court of Criminal

No. 19-6178
-2-

Appeals affirmed. Becton v. State, No. W2014-00993-CCA-R3-PC, 2015 WL 3867758, at *4
(Term. Crim. App. June 23, 2015). Becton again did not seek review from the Tennessee Supreme
Court.1
In October 2015, Becton filed a § 2254 habeas petition, in which he argued that: (1) trial
counsel rendered ineffective assistance by not: (i) filing pretrial motions, or (ii) conducting a
reasonable investigation by visiting the crime scene or having physical evidence from the crime
scene tested for blood; (2) the prosecutor committed misconduct by: (i) repeatedly referring to
matters not in evidence, (ii) telling the jurors to do their duty, interpreting the jury instructions,
and vouching for the witnesses’ credibility, (iii) commenting on his decision not to testify, and
(iv) waiting until the day before the sentencing hearing to file a notice of enhancement; (3) the trial
judge was biased; and (4) cumulative error deprived him of a fair trial. Becton subsequently
withdrew Claims l(i), 2(i), 2(ii), 2(iv), and 3, conceding that they were procedurally defaulted.
The district court dismissed Becton’s withdrawn claims and denied his remaining claims after
determining that they were either procedurally defaulted or meritless. The district court therefore
dismissed the habeas petition with prejudice and declined to issue a COA.
Becton now seeks a COA from this court with respect to each of his habeas claims. Becton
also advances new claims and arguments in his COA application that he did not raise in the district
court, such as his claim that his convictions are supported by insufficient evidence or his argument
that “untrained prison legal aides” are responsible for him omitting certain claims from his habeas
petition. These claims are not properly before this court barring “exceptional circumstances” or if
failing to consider them would result in a “plain miscarriage of justice,” United States v. Ellison,
462 F.3d 557, 560 (6th Cir. 2006), and we decline to review them now.
A COA may be issued “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).
In order to be entitled to a COA, the movant must demonstrate “that jurists of reason could disagree
’ A criminal defendant in Tennessee exhausts a claim by presenting it to the trial court and the
Court of Criminal Appeals. See Tenn. S. Ct. R. 39; see also Adams v. Holland, 330 F.3d 398, 40203 (6th Cir. 2003).

V
No. 19-6178
-3-

with the district court’s resolution of his constitutional claims or that jurists could conclude that
the issues presented are adequate to deserve encouragement to proceed further.” Miller-El, 537
U.S. at 327. When the district court “denies a habeas petition on procedural grounds without
reaching the prisoner’s underlying constitutional claim,” the petitioner satisfies § 2253(c)(2) by
establishing that “jurists of reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
At the outset, a review of the record confirms that Becton explicitly withdrew Claims 1 (i),
2(i), 2(ii), 2(iv), and 3. Reasonable jurists therefore could not debate the district court’s dismissal
of those claims.
Ineffective Assistance of Trial Counsel
In Subclaim 1 (ii), Becton advanced two arguments. He first argued that trial counsel was
ineffective for not conducting a reasonable investigation by visiting the crime scene or having
physical evidence from the crime scene forensically tested. The district court found that Becton
failed to exhaust his state-court remedies with respect to this subclaim because, although he raised
it in his post-conviction petition, he did not present it to the Tennessee Court of Criminal Appeals.
A federal court may not entertain a habeas claim unless the petitioner has first exhausted his
remedies in state court. 28 U.S.C. § 2254(b)(1)(A). To exhaust a claim, the petitioner “must
‘fairly present’ [the] claim in each appropriate state court . . . thereby alerting that court to the
federal nature of the claim.” Baldwin v. Reese, 541 U.S. 27, 29 (2004) (quoting Duncan v. Henry,
513 U.S. 364, 365-66 (1995)). When a petitioner has failed to exhaust the remedies available in
the state courts, his claims are procedurally defaulted. See Grayv. Netherland, 518 U.S. 152, 161
(1996).
“[T]he doctrine of exhaustion requires that a claim be presented to the state c.ourts under
the same theory in which it is later presented in federal court.” Wong v. Money, 142 F.3d 313, 322
(6th Cir. 1998); see Williams v. Bagley, 380 F.3d 932, 969 (6th Cir. 2004). The only claims that
Becton advanced in his post-conviction appeal concerned trial counsel’s failure to present an alibi

No. 19-6178
-5to present either ‘Ann’ or an expert witness at the evidentiary hearing,” and therefore declined to
“speculate what either witness might have testified to at trial.” Id. at *4. But it also concluded
that “trial counsel’s reasoning for not calling these witnesses—that ‘Ann’ would not have provided
the petitioner with an alibi and that the DNA evidence presented by the State was already sparse”—
constituted reasonable trial strategy. Id.
The district court determined that the state appellate court did not unreasonably apply
Strickland in resolving this subclaim. In reaching that determination, the district court noted that
“Becton conceded that Ann was not present when he had (what he contends was consensual) sex
with the victim,” and she therefore “had no personal knowledge about whether Becton raped the
victim.” It further agreed that counsel’s decision not to present expert testimony was a strategic
choice because the DNA evidence presented by the State “was not significantly probative of guilt.”
Reasonable jurists could not debate the district court’s dismissal of this claim.
Prosecutorial Misconduct
In Subclaim 2(iii), Becton argued that the prosecutor committed misconduct during closing
arguments by commenting on his decision not to testify at trial. The Tennessee Court of Criminal
Appeals described the prosecutor’s conduct as follows:
In this case, the prosecutor asserted the following during the State’s rebuttal closing
argument, which ultimately led to the statement the Defendant argues was
improper:
Now when [the victim] testified and she told you about her injuries,
she told you a lot about her injuries but no one ever asked her, I
never thought to ask her, [defense counsel] never asked her, no one
asked her what was there right when you left and what was not there
till two days later [referring to the victim’s injuries] .... No one
asked her that.
Defense counsel immediately objected, stating that the prosecutor is “trying to put
facts not into evidence in front of the jury.” In response to the objection, the trial
court stated, “All I got to say is the jury heard the testimony from the witness, they
have heard the statements of the attorneys and they will be the final arbiters of what
was said from that witness stand.”
The prosecutor then continued:

No. 19-6178
-6-

No one asked her that. And the law tells you not to speculate, not to
guess. The law tells you you can 7 consider the fact that he decided
not to testify, but that’s his right. But the law tells you not to
speculate and not to guess. And that means don’t speculate and
don’t guess what he might ofsaid had he got up there.
(Emphasis added). Defense counsel objected. The trial court responded, “I don’t
know if that’s quite correct, general.” A bench conference ensued ....
Becton, 2013 WL 967755, at *21. The trial court subsequently instructed the jury to disregard the
prosecutor’s remarks. Id. at *22.
The Fifth Amendment “forbids ... comment by the prosecution on the accused’s silence.”
Griffin v. California, 380 U.S. 609, 615 (1965). But Fifth Amendment violations are subject to
harmless error review. See Moore v. Mitchell, 708 F.3d 760, 799-800 (6th Cir. 2013). On federal
habeas review, a constitutional error requires reversal if it “had substantial and injurious effect or
influence in determining the jury’s verdict,” i.e., it caused actual prejudice. Brecht v. Abrahamson,
507 U.S. 619, 637 (1993) (quoting Kotteakos v. United States, 328 U.S. 750, 776 (1946)). For
claims adjudicated on the merits by the state court, the Brecht test encompasses the question of
whether a state court reasonably applied the “harmless beyond a reasonable doubt” standard set
forth in Chapman v. California, 386 U.S. 18, 24 (1967). Ruelas v. Wolfenbarger, 580 F.3d 403,
412 (6th Cir. 2009); see also Davis v. Ayala, 135 S. Ct. 2187, 2198 (2015). A habeas court may,
“before turning to Brecht, inquire whether the state court’s Chapman analysis was reasonable. If
it was reasonable, the case is over. But... a habeas court may [also] go straight to Brecht with
full confidence that [Chapman's] standards will also be satisfied.” Ruelas, 580 F.3d at 413.
On direct appeal, the Tennessee Court of Criminal Appeals found “that the prosecutor’s
challenged statements “were highly improper,” but nonetheless affirmed Becton’s convictions
because “the record established] beyond a reasonable doubt that the prosecutor’s improper
comment did not have a prejudicial effect upon the jury’s verdict.” Becton, 2013 WL 967755, at
*25. In making the Chapman harmless-error determination, the state appellate court considered
the following factors: (1) the conduct complained of in light of the facts and circumstances of the

No. 19-6178
-7-

case; (2) the curative measures undertaken by the trial court; (3) the prosecutor’s intent in making
the improper remarks; (4) the cumulative effect of the improper conduct and any other errors in
the record; and (5) the relative strength or weakness of the case. Id. at *23 (citing Judge v. State,
539 S.W.2d 340, 344 (Tenn. Crim. App. 1976)). The state appellate court found that these factors
all weighed in the State’s favor, and therefore concluded that the State had met its burden of
establishing that the prosecutor’s improper remarks were harmless beyond a reasonable doubt.2
Id. at *24-25. Specifically, it noted that “the prosecutor’s challenged remarks were only a small
portion of her closing argument, which otherwise focused on the facts and circumstances of the
crime,” and that the trial court gave a curative instruction to the jury. Id. at *24. It next found no
other obvious errors in the record and no evidence that the prosecutor made her statements with
malintent. Id. at *25. Finally, it found that the State’s case against Becton was “strong” given the
victim’s detailed testimony, corroborating witness testimony, and crime-scene evidence. Id.
The district court concluded that the state appellate court’s decision neither contradicted
nor unreasonably applied Chapman, and did not “result[] in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(l)-(2). In reaching that conclusion, the district court reiterated
the state appellate court’s conclusion that Becton was not prejudiced by the prosecutor’s remarks
given their brevity, the trial court’s subsequent curative instruction, and the overall strength of the
State’s case. See Ruelas, 580 F.3d at 413 (holding that a habeas court need not conduct the Brecht
inquiry upon concluding that the state court’s Chapman analysis was reasonable). The district
court further determined that Becton failed to rebut any of the factual findings underpinning the
state appellate court’s harmless-error determination by clear and convincing evidence. See 28

2 Following the Tennessee Court of Criminal Appeals’ affirmance of Becton’s convictions on
direct appeal, the Tennessee Supreme Court held that the Judge test is properly used only for “an
improper prosecutorial argument that does not rise to the level of a constitutional violation.”
Jackson, 444 S.W.3d at 591 n.50. The Tennessee Supreme Court thus adopted a new standard for
evaluating whether Griffin error is harmless on direct review. Id. at 591. This change in the law
is irrelevant when analyzing whether the Tennessee Court of Criminal Appeals reasonably applied
clearly established federal law in resolving Becton’s habeas claim.

*

No. 19-6178
-8-

U.S.C. § 2254(e)(1). Reasonable jurists could riot disagree with the district court’s resolution of
this claim.
Cumulative Error
Finally, Becton argued in Claim 4 that he was denied his right to a fair trial in view of the
cumulative effect of the foregoing claims. Because a claim of cumulative error is not a cognizable
ground for relief on federal habeas review, see Williams v. Anderson, 460 F.3d 789, 816 (6th Cir.
2006), no reasonable jurist couid disagree with the district court’s rejection of this claim.
Accordingly, Becton’s COA application is DENIED and his motion for pauper status is
DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

%

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Deborah S. Hunt
Clerk

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Tel. (513) 564-7000
www.ca6.uscoui1s.gov

Filed: October 17, 2019

Mr. Byron Becton
Northwest Correctional Complex
960 State Route 2.12
Tiptonville, TN 38079
Re: Case No. 19-6178, Byron Becton v. Shawm Phillips
Originating Case No. : 2:l5-cv-027l0
Dear Mr. Becton:
This appeal has been docketed as case number 19-6178 with the caption that is enclosed on a
separate page. The appellate case number and caption must appear on all filings submitted to the
Court.
The district court has certified that any appeal would not be taken in good faith and has
denied you leave to proceed in forma pauperis. You have until November 18, 2019, to either
pay the $505.00 appellate filing fee or file a motion for pauper status on appeal. If you choose
to pay the fee, it must be submitted to the U.S. District Court. If you choose to request leave to
proceed on appeal in forma pauperis, a motion and an accompanying financial affidavit must be
submitted to this court, the U.S. Court of Appeals for the Sixth Circuit. (Forms are enclosed for
your convenience). Failure to do one or the other may result in the dismissal of the appeal
without further notice.
For this appeal to proceed, the district court or this court must issue a certificate of
appealability (COA) stating at least one issue for review. If the district court has denied the
COA as to some or all issues, this court will review all issues rejected by the district court. You
do not need to take any further action for this review to occur. However, if you choose to do so,
you may submit one signed motion to grant a COA with this court, stating the issues for review
and why this court should review them. If that is your choice, please do so as soon as
possible. 6th Cir. R. 22(a).

\

Th Z-o&y
\

y

U

Tj

»<

This court's review may take several months. If both the district court and this court deny a
certificate of appealability as to all issues, the appeal cannot proceed and will be closed. 28
U.S.C. § 2253(c).
Sincerely yours,
s/Karen S. Fultz
Case Manager
Direct Dial No. 513-564-7036
cc: Mr. Michael Matthew Stahl
Enclosure

r

i

CASENO:
DOCUMENT:

2:15CV02710
39

Byron Becton
219081
Northwest Correctional Complex
960 State Route 212
Tipptonville, TN 38079

ELECTRONIC FILING AND NOTIFICATION ARE NOW MANDATORY’ IN
THE WESTERN DISTRICT OF TENNESSEE. PLEASE VISIT
http://www.tnwd.uscourts.gov/ FOR INFORMATION ON SIGNING
UP FOR ELECTRONIC FILING AND NOTIFICATION.

V
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
)
)
)
)
)
)
)
)
)
)
)

BYRON BECTON,
Petitioner,
v.
SHAWN PHILLIPS,
Respondent.

Case No. 2:15-cv-02710-JTF-dkv

JUDGMENT IN A CIVIL CASE
Decision by Court. This action came for consideration before the Court. The issues
have been duly considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that in accordance with the Order Denying Petition
Pursuant to 28 U.S.C. § 2254, Denying a Certificate of Appealability, Certifying that an Appeal
Would Not be Taken in Good Faith, and Denying Leave to Proceed In Forma Pauperis on Appeal,
docketed on September 17, 2019, the § 2254 Petition is DISMISSED with prejudice.

APPROVED:
s/John T. Fowlkes, Jr.__________
JOHN T. FOWLKES, JR.
UNITED STATES DISTRICT JUDGE

THOMAS M. GOULD
CLERK

September 17, 2019
DATE

s/Patricia Dobberstein
(BY) LAW CLERK

F

Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND
to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by the
filer. PACER access fees apply to all other users. To avoid later charges, download a copy of each
document during this first viewing. However, if the referenced document is a transcript, the free
copy and 30 page limit do not apply.
U.S. District Court
Western District of Tennessee
Notice of Electronic Filing
The following transaction was entered on 9/17/2019 at 9:40 AM CDT and filed on 9/17/2019
Case Name:

Becton v. Holloway

Case Number:

2:15 -cv-02710-JTF-dkv

Filer:
WARNING: CASE CLOSED on 09/17/2019
Document Number:

39

Docket Text:
JUDGMENT in favor of Shawn Phillips against Byron Becton. Parties Byron Becton and Shawn
Phillips terminated. Signed by Judge John T. Fowlkes, Jr. on 09/17/2019. (Dobberstein, Patricia)
2:15-cv-02710-JTF-dkv Notice has been electronically mailed to:
Michael Matthew Stahl Michael.Stahl@ag.tn.gov, Sheron.Johnson@ag.tn.gov
2:15-cv-02710-JTF-dkv Notice will not be electronically mailed to:
Byron Becton
219081
Northwest Correctional Complex
960 State Route 212
Tipptonville, TN 38079
The following document(s) are associated with this transaction:

is

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION

BYRON BECTON,
Petitioner,
v.
SHAWN PHILLIPS,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

Case No. 2:15-cv-02710-JTF-dkv

ORDER DENYING PETITION PURSUANT TO 28 U.S.C. § 2254, DENYING A
CERTIFICATE OF APPEALABILITY, CERTIFYING THAT AN APPEAL WOULD
NOT BE TAKEN IN GOOD FAITH, AND DENYING LEAVE TO PROCEED
IN FORMA PAUPERIS ON APPEAL
Before the Court are the Petition Under 28 U.S.C. § 2254 for Writ of Habeas Corpus by a
Person in State Custody (“§ 2254 Petition”) filed by Petitioner, Byron Becton, Tennessee
Department of Correction prisoner number 219081, an inmate at the Northwest Correctional
Complex (“NWCX”) in Tiptonville, Tennessee (ECF No. 1), Respondent’s Answer to Petition for
Writ of Habeas Corpus (“Answer”), filed by the former respondent, Jonathan Lebo (ECF No.,23),
Becton’s Memorandum of Law in Opposition to Respondent’s Answer/Motion to Dismiss
(“Reply”) (ECF No. 25), the Amended Answer to Petition for Writ of Habeas Corpus (“Amended
Answer”) filed by the current respondent, NWCX Warden Shawn Phillips (ECF No. 31), Becton s
Reply to Respondent’s Amended Answer to Petition for Writ of Habeas Corpus Pursuant to 28
U.S.C. § 2254 (“Reply to Amended Answer”) (ECF No. 34), Respondent’s Second Amended
Answer to Petition for Writ of Habeas Corpus (“Second Amended Answer”) (ECF No. 35), and
Becton’s Second Reply to Respondent’s Second Amended Answer to Petition for Writ of Habeas

'i

V
Corpus Pursuant to 28 U.S.C. § 2254 (“Reply to Second Amended Answer”) (EOF No. 37). For
the reasons stated below, the Court DENIES the § 2254 Petition.

I.

BACKGROUND
A.

State Court Procedural History

On August 10, 2010, a grand jury in Shelby County, Tennessee, returned a six-count
indictment against Becton. Counts 1 through 3 charged that, on December 16, 2009, Becton,
armed with an article used to reasonably lead T.B. to believe it to be a weapon, sexually penetrated
T.B. by fellatio (Count 1), by sexual intercourse (Count 2), and by a bottle (Count 3). Counts 4
through 6 charged that, on the same date, Becton unlawfully sexually penetrated T.B. by fellatio
(Count 4), by sexual intercourse (Count 5), and by a bottle (Count 6) and caused bodily injury to
T.B. (ECF No. 22-1 at PagelD 228-34.) On April 28, 2011, the State filed a notice of its intent
to seek an enhanced sentence. {Id. at PagelD 239-40.) On September 28, 2011, the State filed
another notice of its intent to seek an enhanced sentence and a notice of enhancing factors. {Id.
at PagelD 241, 242-45.)
A jury trial commenced in the Shelby County Criminal Court on August 29, 2011. On
September 1, 2011, the jury returned guilty verdicts on every count. (ECF No. 22-7 at PagelD
982-83.) At a hearing on September 29,2011, the trial judge merged Count 4 with Count 1, Count
5 with Count 2, and Count 6 with Count 3 and sentenced Becton to a term of imprisonment of
forty years on Count 1, a consecutive term of twenty-five years on Count 3, and a concurrent term
of twenty-five years on Count 2, for a total sentence of sixty-five years to be served as a Range II
multiple offender. (ECF No. 22-8 at PagelD 1011-14.) Judgments were entered on September
29, 2011. (ECF No. 22-1 at PagelD 252-57.) The judgments reflect that, although multiple
2

V

offenders ordinarily have a release eligibility of 35%, Becton is required to serve his sentence as a
violent offender at 100%. (Id.) The Tennessee Court of Criminal Appeals (“TCCA”) affirmed.
State v. Becton, No. W2011-02565-CCA-R3-CD, 2013 WL 967755 (Term. Crim. App. Mar. 11,
2013).
On May 30, 2013, Becton filed a pro se Petition for Relief from Conviction or Sentence in
the Shelby County Criminal Court. (ECF No. 22-14 at PagelD 1163-73.) After counsel was
appointed to represent Becton (id. at PagelD 1179), a First Amended Petition for Post Conviction
Relief was filed on November 22,2013 (id. at PagelD 1174-78). A hearing on the post-conviction
petition was held on April 16, 2014, at the conclusion of which the post-conviction court denied
relief. (ECF No. 22-16 at PagelD 1252-61.) An order denying the post-conviction petition was
entered on April 28, 2014. (ECF No. 22-14 at PagelD 1180.) The TCCA affirmed. Becton v.
State, No. W2014-00993-CCA-R3-PC, 2015 WL 3867758 (Tenn. Crim. App. June 23, 2015).
In its opinion on direct appeal, the TCCA summarized the evidence introduced at trial.
State v. Becton, 2013 WL 967755, at *1-17. Between 7:00 and 7:30 p.m. on December 16, 2009,
the victim, T.B., left her home to walk to a friend’s house to buy drugs. As the victim was walking
down an unlighted alley, Becton seized her from behind, pressed a sharp object into her back, and
threatened her that if she moved or screamed he would “kill you where you stand.” Id. at *1.
Becton took the victim to an abandoned house. Becton and the victim fought. Becton sprayed
the victim with “dog spray” that she had been carrying and hit her with objects found in the house
and with his fists. Id. at *2-3. Becton penetrated the victim with a bottle, forced her to perform
oral sex, and had vaginal intercourse with her. Id. at *3. When the rape had concluded, the
victim feared that Becton would not let her leave the house alive because she had seen his face.
3

d

The victim provided Becton with a fake name and promised to see him again. They eventually
left the house together and, when she and Becton parted, the victim went home and told her fiance
what had happened. The victim and her fiance went out to look for Becton, found him in a Mapco
station, and notified two police officers who were parked across the street. The victim was taken
to the hospital, where she remained until the morning of December 17, 2009. Id. at *4-5. The
TCCA held that the evidence was sufficient to convict Becton on the three counts of aggravated
rape through force or coercion with a weapon, id. at *20, and on the three counts of aggravated
rape involving bodily injury, id. at *21.
B.

Procedural History of Becton’s § 2254 Petition, Case Number 2:15-cv-02710

On October 28, 2015, Becton filed his pro se § 2254 Petition, accompanied by a legal
memorandum. (EOF Nos. 1, 1-1.) The § 2254 Petition presents the following claims:
1.

“Did the ineffective assistance of counsel deprive the Petitioner of his rights
guaranteed by the Sixth Amendment of the United States Constitution?”
(ECF No. 1-1 at PagelD 16 (irregular capitalization omitted); see also id. at
PagelD 20-33);

2.

“Did the prosecutor’s misconduct deprive the Petitioner of a fair trial?” (id.
at PagelD 16 (irregular capitalization omitted); see also id. at PagelD 3449);

3.

“Did the judge being biased deprive the Petitioner of a fair trial (id. at
PagelD 16 (irregular capitalization omitted); see also id. at PagelD 49-53);
and

4.

“Did the cumulative errors deprive the Petitioner of a fair trial[?]” (id. at
PagelD 16 (irregular capitalization omitted); see also id. at PagelD 53-55).

On May 12, 2016, Becton filed a decision by the Tennessee Supreme Court addressing the
standards to be applied in assessing prosecutorial misconduct. (ECF No. 9.) On June 1, 2016,
Becton submitted his own declaration providing additional legal argument in support of Claim 2.
4
/

(ECF No. 10.) On September 16, 2016, Becton filed a document concerning a disciplinary
proceeding against the Shelby County District Attorney General arising from her actions in an
unrelated case. (ECF No. 14.)
The Court issued an order on November 2, 2016, directing Respondent to file the statecourt record and a response to the § 2254 Petition. (ECF No. 17.) On December 29, 2016, Lebo
filed the state-court record and his Answer. (ECF Nos. 22, 23.) Becton filed his Reply on
February 8,2017. (ECF No. 25.)
On January 23,2018, Becton filed another document concerning a disciplinary proceeding
against the Assistant District Attorney General who prosecuted his criminal case. (ECF No. 28.)
The Tennessee Board of Professional Responsibility issued a Private Reprimand to the prosecutor.
{Id. at PagelD 1389.)
The Court issued an order on February 15, 2019 denying leave to amend as to the new
challenge to the sufficiency of the evidence raised for the first time in Becton’s Reply and directing
the Warden to file an amended answer that addressed each of Becton’s claims and sub-claims.
(ECF No. 30.) On February 21, 2019, the Warden filed his Amended Answer. (ECF No. 31.)
On April 4, 2019, the Court ordered the Warden to file a second amended answer addressing a
portion of Claim 2. (ECF No. 33.) That order also extended Becton’s time to reply to the
Amended Answer. {Id. at 1 n. 1.) Becton filed his Reply to Amended Answer on April 23,2019.
(ECF No. 34.) On May 2, 2019, Phillips filed his Second Amended Answer. (ECF No. 35.)
Becton filed his Reply to Second Amended Answer on May 21, 2019. (ECF No. 37.)

5

'i

V,
II.

ANALYSIS OF PETITIONER’S CLAIMS
A.

The Alleged Prosecutorial Misconduct (Claim 2)'

In Claim 2, Becton alleges that the prosecution engaged in misconduct. Specifically, he
complains that (i) the prosecutor repeatedly referred to matters not in evidence (ECF No. 1-1 at
PagelD 19, 34-43); (ii) the prosecutor told the jurors to do their duty, interpreted the jury
instructions, and vouched for the credibility of the witnesses (id. at PagelD 19, 43-44); (iii) the
prosecutor commented on Becton’s decision not to testify (id. at PagelD 19, 44, 46-49); and (iv)
the prosecutor waited until the day before the sentencing hearing to file a notice of enhancement
(id. at PagelD 19,45). For the reasons that follow, Becton is not entitled to relief on Claim 2.
1.

Sub-Claims (i), (ii), and (iv) Have Been Procedurally Defaulted

In sub-claim (i), Becton complains that the prosecutor referred to matters not in evidence.
Specifically, the victim testified that she gave Becton a piece of paper containing a false name and
telephone number. A police officer testified that, when Becton was being held in a squad car,
Becton was tearing up a piece of paper. Although the officer collected the scraps, they were not
introduced into evidence because they were lost by the police. The State referred to the note in
its closing argument. (See ECF No. 1-1 at PagelD 35-36.) Becton also complains that the
prosecutor claimed that a photograph depicted blood on the wall of the abandoned house where
the victim was raped, but no blood tests were performed. (Id. at PagelD 37-40.) An officer was
also asked to opine on whether stains on a shirt found in the house were blood. (Id. at PagelD 4042.)

In the interest of clarity, the Court will address Claims 2 and 3 before Claim 1.
6

V.
In sub-claim (ii), Becton complained that the prosecutor told the jurors to do their duty,
gave her interpretation of the jury instructions, and vouched for the credibility of witnesses.
Specifically, the prosecutor stated in her closing argument that the law presumes that witnesses
tell the truth. She told the jury that it was their job to reconcile the differences in the testimony
of the witnesses. (Id. at PagelD 42-43.)
In sub-claim (iv), Becton complained that the prosecutor filed a notice of enhancement
factors the day before the sentencing hearing. (Id. at PagelD 44.)
In his Amended Answer, Phillips argues that Becton failed to exhaust these sub-claims in
state court and, therefore, they are barred by procedural default. (ECF No. 31 at 32-33.) In his
Reply to Amended Answer and Reply to Second Amended Answer, Becton has agreed and has
withdrawn his unexhausted sub-claims. (ECF Nos. 34 at 3, 37 at 4.) Therefore, sub-claims (i),
(ii), and (iv) are DISMISSED.
2.

Becton is Not Entitled to Relief on Sub-Claim (iii)

In sub-claim (iii), Becton complains that the prosecutor, during closing arguments,
commented on his decision not to testify. (ECF No. 1-1 at PagelD 43, 46-49.) Becton raised
this issue in his brief to the TCCA on direct appeal. (ECF No. 22-10 at PagelD 1052, 1058-64.)
The TCCA has described the conduct at issue:
In this case, the prosecutor asserted the following during the State’s rebuttal
closing argument, which ultimately led to the statement the Defendant argues was
improper:
Now when [the victim] testified and she told you about her injuries, she told
you a lot about her injuries but no one ever asked her, I never thought to ask
her, [defense counsel] never asked her, no one asked her what was there
right when you left and what was not there till two days later [referring to
the victim’s injuries].... No one asked her that.
7

p

■M

Defense counsel immediately objected, stating that the prosecutor is “trying to put
facts not into evidence in front of the jury.” In response to the objection, the trial
court stated, “All I got to say is the jury heard the testimony from the witness, they
have heard the statements of the attorneys and they will be the final arbiters of what
was said from that witness stand.”
The prosecutor then continued:
No one asked her that. And the law tells you not to speculate, not
to guess. The law tells you you can't consider the fact that he decided not
to testify, but that’s his right. But the law tells you not to speculate and not
to guess. And that means don’t speculate and don't guess what he might
ofsaid had he got up there.
(Emphasis added). Defense counsel objected. The trial court responded, “I don’t
know if that’s quite correct, general.” A bench conference ensued ...
State v. Becton, 2013 WL 967755, at *21. “After the bench conference, the Court instructed the
jury, ‘All right, ladies and gentlemen of the jury, you will disregard the last words of the district
attorney.’ The prosecutor then continued in a different vein.” Id. at *22.
The TCCA denied relief on the merits, reasoning that “[a] prosecutor’s comment on the
defendant’s failure to testify violates the Fifth Amendment to the United States Constitution and
Article I, § 9 of the Tennessee Constitution, both of which guarantee the defendant the right to
remain silent.” Id. The TCCA ruled that the challenged statement violated Becton’s rights,
reasoning that, “[i]n this case, the prosecutor directly referenced the Defendant’s decision not to
testify .... We hold that the prosecutor’s challenged statements clearly constituted a comment
on the Defendant’s choice not to testify at trial and, thus, were highly improper.” Id. at *23.
The TCCA then addressed the remedy to be afforded, relying on the standard in Chapman
v. California, 386 U.S. 18, 24 (1967), which applied the “harmless error doctrine to constitutional
violations, including improper prosecutorial comments on the defendant’s failure to testify.”
State v. Becton, 2013 WL 967755, at *23.

Under Chapman, the State has the burden of^(^
8

V
demonstrating beyond a reasonable doubt that an error is harmless,

Id.

In making this

determination, the TCCA applied the five-part test used in cases such as State v. Thornton, 10
S.W.3d 229, 236 (Tenn. Crim. App. 1999) and Judge v. State, 539 S.W.2d 340, 344 (Tenn. Crim.
App. 1976). Id. In holding that the State had satisfied its burden of showing that the prosecutor’s
misconduct was harmless beyond a reasonable doubt, the TCCA reasoned as follows:
We first consider the prosecutor’s misconduct “in light of the facts and
circumstances of the case[.]” Thornton, 10 S.W.3d at 235. In analyzing this
factor, “the courts have considered whether the remarks were lengthy or repeated,
or whether the statement was single or isolated.” See Judge, 539 S.W.2d at 344.
“They have also taken into account whether the improper remark of the prosecutor
was made in response to the defendant’s comments or argument” and “the general
‘atmosphere’ of the courtroom.” Id. (citation omitted). Here, the prosecutor’s
challenged remarks were only a small portion of her closing argument, which
otherwise focused on the facts and circumstances of the crime. Although the
prosecutor explained that she made this comment in response to a statement defense
counsel made in his closing argument, her comment was not a proper response.
Nevertheless, this factor weighs in favor of the State.
Next we consider the curative measures undertaken. Thornton, 10 S.W.3d
at 235. Here, the prosecutor’s improper comment elicited a prompt objection by
defense counsel. The trial court immediately stated to the prosecutor, “I don’t
know if that’s quite correct, general,” and a bench conference ensued. The trial
judge implicitly sustained the objection by stating that the prosecutor would not
“go there” again and by instructing the jury to “disregard the last words of the
district attorney.”
The prosecutor then proceeded in a different vein.
Additionally, in the jury instructions given at the close of trial, the trial court issued
the following instruction:
The [Defendant is not required to take the witness stand in his own behalf
and his failure to do so cannot be considered for any purpose against him
nor can any inference be drawn from such failure of the [Defendant who
did not take the stand in his own behalf.
The jury is presumed to have followed this instruction. See, e.g., State v. Shaw, 37
S.W.3d 900, 904 (Tenn. 2001). Although an improper remark by the prosecutor
made during argument may constitute reversible error despite curative instructions'
by the trial court, see Judge, 539 S.W.2d at 345, we conclude that the curative
measures taken by the trial court, albeit minimal, marginally were sufficient for this
factor to weigh in favor of the State.
9

V

We next examine the prosecutor’s intent in making the improper comment,
Thornton, 10 S.W.3d at 235, “although arguably the prejudicial effect to the
defendant is the same regardless of the prosecutor’s good or bad intent.” See
Judge, 539 S.W.2d at 346. Here, the prosecutor asserted that she made the
improper comment in response to defense counsel’s statement in his closing
argument. She added, “And I didn’t get to finish what I was saying with it. I
apologize for the inference.” Thus, it is clear she made her comment intentionally.
Nevertheless, we hesitate to infer bad intent on the part of the prosecutor. While
we reiterate that it is incumbent upon prosecutors to refrain from commenting,
whatsoever, on a defendant’s decision not to testify, because we find no bad intent,
this factor also weighs in favor of the State.
We next consider the cumulative effect of the misconduct and any other
errors evident in the record. See Thornton, 10 S.W.3d at 235. The only other
error about which [Becton] complains is the sufficiency of the evidence, which we
have determined is without merit. Accordingly, this factor weighs in favor of the
State.
Finally, we consider the relative strength or weakness of the case in
determining the likelihood of prejudice in the minds of the jury. See Thornton, \0
S.W.3d at 235; see also Judge, 539 S ,W.2d at 346. The prejudicial impact of an
improper remark on the jury is likely to be greater in a case that is “close” than it
would be in a case where evidence of defendant’s guilt is overwhelming. See, e.g,
Judge, 539 S.W.2d at 346. The proof in this case is strong. The victim testified
in detail to three different incidents of rape. Her account of what transpired on the
night of the incident also is supported by the evidence collected from the crime
scene and the testimony of the State’s witnesses concerning her demeanor, injuries,
and account of what happened. Thus, this factor weighs in favor of the State.
Considering all of the Judge factors, we hold that the record establishes
beyond a reasonable doubt that the prosecutor’s improper comment did not have a
prejudicial effect upon the jury’s verdict. Accordingly, [Becton] is not entitled to
a new trial on this basis.
State v. Becton, 2013 WL 967755, at *24-25 (footnote omitted).
When a state prisoner’s claim has been adjudicated on the merits in state court, as it has
been here, a federal court can issue a writ only if the adjudication:
resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or
10

(2)

resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

28 U.S.C. § 2254(d)(l)-(2). The petitioner carries the burden of proof for this “difficult to meet”
and “highly deferential standard,” which “demands that state-court decisions be given the benefit
of the doubt.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (internal quotation marks and
citations omitted).
The Fifth Amendment to the United States Constitution, which has been made applicable
to the states through the Fourteenth Amendment, bars prosecutors from commenting on a criminal
defendant’s decision not to testify at trial. Griffin v. California, 380 U.S. 609, 615 (1965). In
Griffin, the trial judge instructed the jury that it could take into account the defendant’s failure to
explain or justify facts within his knowledge, and the prosecutor repeatedly commented on the
defendant’s failure to testify. Id. at 610-11. The Supreme Court reversed, holding that the Fifth
Amendment “forbids either comment by the prosecution on the accused’s silence or instructions
by the court that such silence is evidence of guilt.” Id. at 615.
In Chapman v. California, 386 U.S. 18, 24 (1967), the Supreme Court held that Griffin
violations are subject to harmless-error analysis, meaning that the conviction can be upheld if the
State establishes that the error is harmless beyond a reasonable doubt. That standard was not
satisfied in Chapman.

There, the Supreme Court emphasized that “the state prosecutor’s

argument and the trial judge’s instruction to the jury continuously and repeatedly impressed the
jury that from the failure of petitioners to testify, to all intents and purposes, the inferences from
the facts in evidence had to be drawn in favor of the State—in short, that by their silence petitioners
had served as irrefutable witnesses against themselves.” Id. at 25. “[Ajbsent the constitutionally
ii

forbidden comments, honest, fair-minded jurors might very well have brought in not-guilty
verdicts.” Id. at 25-26. Therefore, the Supreme Court held that the State had not established that
the prosecutor’s comments and the trial judge’s instructions were harmless beyond a reasonable
doubt. Id. at 26.
Becton cannot establish that the TCCA’s decision was contrary to Griffin and Chapman.
A state court’s decision is “contrary” to federal law when it “arrives at a conclusion opposite to
that reached” by the Supreme Court on a question of law or “decides a case differently than” the
Supreme Court has “on a set of materially indistinguishable facts.” Williams v. Taylor, 529 U.S.
362, 412-13 (2000). The TCCA cited the correct legal rule from Griffin and Chapman and from
Tennessee cases applying those decisions. State v. Becton, 2013 WL 967755, at *22, 23-25.
This is “a run-of-the-mill state-court decision applying the correct legal rule ... to the facts of a
prisoner’s case” and, therefore, it does not “fit comfortably within § 2254(d)(l)’s ‘contrary to’
clause.” Williams, 529 U.S. at 406.
This conclusion is not altered by the fact that the TCCA ruled in Becton’s favor, holding
that “the prosecutor’s challenged statements clearly constituted a comment on [Becton’s] choice
not to testify at trial and, thus, were highly improper.” State v. Becton, 2013 WL 967755, at *23.
Although the TCCA’s holding goes well beyond the rule announced in Griffin, the Warden does
not challenge that decision. (See ECF No. 35 at 9-10.) Notably, the Warden does not argue that
the TCCA’s decision rested on the Tennessee constitution or on Tennessee Code Annotated § 4017-103. See State v. Becton, 2013 WL 967755, at *22.2 The Supreme Court has held that, under

2 See also State v. Jackson, 444 S.W.3d 554, 586-88 (Tenn. 2010) (summarizing federal
and state decisions applying Griffin).

I

28 U.S.C. § 2254’s “contrary to” clause, “[a] federal court may not overrule a state court for simply
holding a view different from its own, when the precedent from this Court is, at best, ambiguous.”
Mitchell v. Esparza, 540 U.S. 12, 17 (2003) (per curiam). Because the TCCA’s decision finding
a constitutional violation “does not conflict with the reasoning or the holdings of [Supreme Court]
precedent, it is not ‘contrary to ... clearly established Federal law.’” Id.
Given the TCCA’s finding of a Griffin violation, the Court must assess whether the
TCCA’s holding that the State established that the error was harmless beyond a reasonable doubt
was an objectively unreasonable application of Chapman. An “unreasonable application” of
federal law occurs when the state court “identifies the correct governing legal principle from” the
Supreme Court’s decisions “but unreasonably applies that principle to the facts of the prisoner’s
case.”

Williams, 529 U.S. at 413.

The state court’s application of federal law must be

“objectively unreasonable” for the writ to issue. Id. at 409. It is not sufficient that the habeas
court, in its independent judgment, determines that the state court decision applied clearly
established federal law erroneously or incorrectly. Renico v. Lett, 559 U.S. 766, 773 (2010)
(citing Williams, 529 U.S. at 411).
As a condition for obtaining habeas corpus from a federal court, a state prisoner
must show that the state court’s ruling on the claim being presented in federal court
was so lacking in justification that there was an error well understood and
cpmprehended in existing law beyond any possibility for fairminded disagreement.
Harrington v. Richter, 562 U.S. 86, 103 (2011).
Where, as here, the state court holds that a constitutional violation is harmless, “habeas
relief is appropriate only if the [state court] applied harmless-error review in an objectively
unreasonable manner.”

Esparza, 540 U.S. at 18 (internal quotation marks omitted),

In

evaluating the TCCA’s decision on Claim 2 under 28 U.S.C. § 2254(d)(1), the relevant standard
13

is whether the petitioner has established that the challenged error “had [a] substantial and injurious
effect or influence in determining the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619, 638
(1993) (internal quotation marks omitted); see Fry v. Pliler, 551 U.S. 112,119-20 (2007) (applying
Brecht to review under 28 U.S.C. § 2254(d)(1)). In holding that the constitutional error at issue
in Brecht, which consisted of prosecutorial comments on the defendant’s silence after being
advised of his Miranda rights, did not warrant habeas relief, the Supreme Court noted that “[t]he
State’s references to petitioner’s post-Miranda silence were infrequent, comprising less than two
pages of the 900-page trial transcript in this case,” and were cumulative of its “extensive and
permissible references to [his] pre-Miranda silence.” 507 U.S. at 639. The Supreme Court also
relied on the fact that “the State’s evidence of guilt was, if not overwhelming, certainly weighty.”
Id.
As a preliminary matter, Becton’s primary argument, that the Tennessee Supreme Court
invalidated the legal standard applied by the TCCA in his case, is irrelevant. (See ECF No. 9
(attaching copy of Jackson decision); see also ECF No. 14 (petition for discipline filed against the
Shelby County District Attorney General for her conduct in Jackson case); see also ECF No. 37
at 21-22, 24-25 (arguing that the TCCA’s decision is inconsistent with current Tennessee law).)
In this case, the TCCA analyzed Chapman error by applying the five-factor test from Judge v.
State, 539 S.W.2d at 344. See State v. Becton, 2013 WL 967755, at *23. Subsequently, in State
v. Jackson, 444 S.W.3d at 591 n.50, the Tennessee Supreme Court held that the Judge test is
properly used only for “an improper prosecutorial argument that does not rise to the level of a
constitutional violation.” In performing the Chapman analysis for Griffin error, the Tennessee
Supreme Court found that “courts should consider the nature and extensiveness of the prosecutor’s
14

argument, the curative instructions given, if any, and the strength of the evidence of guilt.” Id. at
591.
That the Tennessee courts adopted a new standard for evaluating whether Griffin error is
harmless on direct review has no bearing on whether the TCCA’s decision in this case was an
unreasonable application of Chapman.

Ordinarily, the clearly established federal law for

purposes of 28 U.S.C. § 2254(d)(1) is the law at the time of the state-court decision at issue.
Strickler v. Greene, 565 U.S. 34, 43-44 (2011). Moreover, the Court’s task is to assess whether
the TCCA’s decision in Becton’s case “involved an unreasonable application of[] clearly
established Federal law, as determined by the Supreme Court of the United States.” 28
U.S.C. § 2254(d)(1) (emphasis added). That the TCCA, a state court, has changed its test for
assessing harmless error for non-structural constitutional violations is irrelevant to that inquiry.
Cf. Parker v. Matthews, 567 U.S. 37, 48-49 (2012) (per curiam) (holding that Sixth Circuit “erred
in consulting its own precedents, rather than those of this Court, is assessing the reasonableness of
the Kentucky Supreme Court’s decision. . . . [Cjircuit precedent . . . cannot form the basis for
habeas relief under AEDPA.”). Thus, in assessing the TCCA’s decision on Claim 2, this Court
will consider only whether the TCCA’s decision was an unreasonable application of federal law
as established by the applicable Supreme Court decisions.
Becton has not satisfied his burden of demonstrating that the TCCA’s decision was an
objectively unreasonable application of Chapman. First, as the TCCA observed, the prosecutor’s
remark was brief, consisting of three sentences in the 600-page trial transcript. See State v.
Becton, 2013 WL 967755, at *24 (“Here, the prosecutor’s challenged remarks were only a small
portion of her closing argument, which otherwise focused on the facts and circumstances of the
15

crime”)- Those remarks “elicited a prompt objection by defense counsel,” id., and “[t]he trial
judge implicitly sustained the objection by stating that the prosecutor would not ‘go there’ again
and by instructing the jury to ‘disregard the last words of the district attorney,’” id.

“The

prosecutor then proceeded in a different vein.” Id.
Second, in its Chapman analysis, the TCCA relied on the fact that “[t]he proof in this case
is strong. . . . [The victim’s] account of what transpired on the night of the incident ... is
supported by the evidence collected from the crime scene and the testimony of the State’s
witnesses concerning her demeanor, injuries, and account of what happened.” Id. at *25. Just
as in Brecht, therefore, Becton has not demonstrated that the Griffin error had a substantial and
injurious effect or influence in determining the jury’s verdict in light of the prosecutor’s relatively
brief remark and the strength of the evidence at trial. Therefore, the Court concludes that Becton
has not established the TCCA’s decision was an unreasonable application of Chapman.
Finally, Becton has failed to demonstrate that the TCCA’s decision “was based on an
unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(2). “[W]hen a federal habeas petitioner challenges the factual
basis for a prior state-court decision rejecting a claim, . . . [t]he prisoner bears the burden of
rebutting the state court’s factual findings ‘by clear and convincing evidence.’” Burt v. Titlow,
571 U.S. 12, 18 (2013) (quoting 28 U.S.C. § 2254(e)(1)). A state court’s factual determination is
not “unreasonable” merely because the federal habeas court would have reached a different
conclusion. Woodv. Allen, 558 U.S. 290, 301 (2010); see also Rice v. Collins, 546 U.S. 333,34142 (2006) (“Reasonable minds reviewing the record might disagree” about the factual finding in

0

question, “but on habeas review that does not suffice to supersede the trial court’s . . .
determination.”).
Here, Becton takes issue with the TCCA’s finding that the prosecutor acted in good faith.
He emphasizes that the State’s misconduct was “flagrant” (ECF No. 37 at 23, 28), which he says
is evidence that the remark was made in bad faith (id. at 26-27). Were the Court to review this
factual finding de novo, it might well agree. 3 However, although the TCCA examined the
prosecutor’s motivation, State v. Becton, 2013 WL 967755, at *25, that does not appear to be a
proper consideration under Brecht and its progeny. Instead, the appropriate inquiry addresses the
frequency and prominence of the remarks in the context of the trial as a whole. See supra pp. 1112,13-14. Becton’s analysis conflates the appropriateness of remarks that were deliberately made
with the showing that they “had [a] substantial and injurious effect or influence in determining the
jury’s verdict.” Brecht, 507 U.S. at 638.
Becton also argues that “the evidence in this case was circumstantial.” (ECF No. 37 at
28.) Becton notes that “some of [the victim’s] alleged injuries were never proven to exist by any

3 In the context in which it was made, the prosecutor’s comment was a non sequitur. In
its closing argument, the defense argued that the victim had exaggerated the violence of the assault
by noting that the various persons who encountered her shortly after the assault did not notice the
bruises and other injuries she claimed to have sustained. (ECF No. 22-7 at PagelD 935-36, 93741.) The State, in its rebuttal, argued that bruising sometimes does not become apparent until a
day or two after an injury. (Id. at PagelD 967.) The prosecutor stated, over defense objection,
that she did not think to ask whether additional injuries were evident “two days later.” (Id. at
PagelD 967.) The challenged remark about Becton’s failure to testify occurred immediately after
the trial judge overruled the defense objection. (Id. at PagelD 968.) Although the State argued
at the time that the argument was a response to the defense argument (id. at PagelD 970), the
remark does not appear to be logically connected to the defense’s argument. This suggests, as
Becton has pointed out, that the State was looking for the opportunity to comment on his decision
not to testify. However, as discussed in the text, it is unnecessary to address whether this finding
by the TCCA is objectively unreasonable because the good faith or bad faith of the prosecutor are
not a factor under Chapman and Brecht.
T7

medical testimony.” {Id.) Becton fails to address the TCCA’s finding that the victim’s testimony
was corroborated by the evidence from the crime scene and the testimony of the State’s witnesses.
State v. Becton, 2013 WL 967755, at *25. Moreover, in holding that the evidence was sufficient
to sustain Becton’s convictions on Counts 4 through 6, which require a showing of bodily injury,
the TCCA held that “[t]he evidence also showed that the victim suffered bodily injury,” id. at *20,
and that “[t]he evidence further established ‘physical pain,’ a necessary element of bodily injury,
id. at *21. Although there was a dispute about the extent of the victim’s injuries, by convicting
Becton on all counts, the jury found the victim to be credible notwithstanding the defense’s
attempts to impeach her.
(Becton is correcMhaMhe DNA~evidence~did not “posifively^rove^thaThe sexually
assaulted the victim. (ECF No. 37 at 28.) The DNA evidence implicating Becton was not
conclusive. See State v. Becton, 2013 WL 967755, at *16-17 (DNA from Becton’s penis provided
a “partial DNA profile” consistent with that of the victim and Becton). Despite the weakness of
the DNA evidence, the TCCA nonetheless concluded that the evidence was sufficient to sustain
Becton’s convictions. See id. at *18-21; see also id. at *25 (“The proof in this case is strong.”).
Although the TCCA’s factual findings may, in some respects, be debatable, Becton has not
satisfied his burden of demonstrating that its application of Chapman rested on objectively
unreasonable factual findings.
For all the foregoing reasons, Claim 2 is without merit and is DISMISSED.
B.

The Alleged Judicial Bias (Claim 3)

In Claim 3, Becton argues that the trial judge exhibited unconstitutional bias. (ECF No.
1-1 at PagelD 16.) Specifically, Becton complains that there were twenty-six bench conferences
18

in the presence of the jury (id. at PagelD 45), that the trial judge “kept referring to the Court of
Appeals” (id.-, see also id. at PagelD 45-46), that the trial judge refused to grant a mistrial after the
prosecutor commented on Becton’s failure to testify (id. at PagelD 46, 49), and that the jury
instructions were coercive (id. at PagelD 49-53).
In his Answer, the Warden argues that Becton did not exhaust any aspect of Claim 3 in
state court and, because there is no longer any way to do so, the claim is barred by procedural
default. (ECF No. 23 at 37-38.) Becton does not disagree. Instead, in his Reply to Amended
Answer, he has withdrawn this claim. (ECF No. 34 at 5.) Therefore, Claim 3 is without merit
and is DISMISSED.
C.

Ineffective Assistance of Counsel (Claim 1)

In Claim 1, Becton argues that his trial counsel rendered ineffective assistance, in violation
of the Sixth Amendment. (ECF No. 1-1 at PagelD 16, 20-33.) Specifically, Becton complains
that his attorney (i) failed to file pretrial motions, including a motion to dismiss the indictment as
multiplicitous (id. at PagelD 23-25); and (ii) failed to investigate or interview witnesses, including
an alibi witness and a DNA expert, failed to visit the crime scene, and failed to have the substance
on the wall tested to determine whether it is blood (id. at PagelD 25-31).
1.

Sub-Claim (i) Has Been Procedurally Defaulted

In his Amended Answer, the Warden argues that sub-claim (i), counsel’s failure to file
pretrial motions, has been procedurally defaulted. (ECF No. 31 at 20-25.) Becton does not
disagree. In his Reply to the Amended Answer, Becton has withdrawn this sub-claim. (ECF No.
34 at 4.) Therefore, sub-claim (i) is DISMISSED.

19

2.

Becton is Not Entitled to Relief on Sub-Claim (ii)

In sub-claim (ii), Becton complains that his trial counsel failed to conduct a reasonable
investigation by visiting the crime scene and by having the substance on the wall tested to
determine whether it is blood. Becton also complains that his attorney failed to interview an alibi
witness and to hire a DNA expert.
The Warden first argues that Becton’s claim that his attorney failed to visit the crime scene
was not exhausted in state court and is now barred by procedural default. (ECF No. 31 at 30-31.)
The Court agrees. A federal court may not grant a writ of habeas corpus on behalf of a state
prisoner unless, with certain exceptions, the prisoner has exhausted available state remedies by
presenting the same claim sought to be redressed in a federal habeas petition to the state courts
pursuant to 28 U.S.C. §§ 2254(b) and (c). Pinholster, 563 U.S. at 181. The petitioner must
“fairly present” each claim to each appropriate state court. Baldwin v. Reese, 541 U.S. 27, 29
(2004). If a claim has never been presented to the state courts but a state court remedy is no longer
available (e.g., when an applicable statute of limitations bars a claim), the claim is technically
exhausted, but procedurally barred. Coleman v. Thompson, 501 U.S. 722, 731-32 (1991). To
avoid procedural default, a habeas petitioner in Tennessee must present his federal claims to the
trial court and, on appeal, to the TCCA. Covington v. Mills, 110 F. App’x 663, 665 (6th Cir.
2004).
To fairly present a federal claim, a prisoner must present the same facts and legal theory to
the state courts as is raised in his federal habeas petition. See Anderson v. Harless, 459 U.S. 4, 67 (1982); Picard v. Connor, 404 U.S. 270, 276-77 (1971); Hodges v. Colson, 727 F.3d 517, 529
(6th Cir. 2013) (“The exhaustion doctrine requires the petitioner to present the same claim under
20

the same theory to the state courts before raising it on federal habeas review.”) (internal quotation
marks and alteration omitted). In evaluating whether a prisoner has “fairly presented” a claim to
a state appellate court, the controlling document is the inmate’s brief. See Baldwin, 541 U.S. at
32 (“[OJrdinarily a state prisoner does not ‘fairly present’ a claim to a state court if that court must
read beyond a petition or a brief (or a similar document) that does not alert it to the presence of a
federal claim in order to find material, such as a lower court opinion in the case, that does so.”).
Here, the only claims presented by Becton on the post-conviction appeal were that counsel
failed to present an alibi witness and an expert witness.

(ECF No. 22-17 at PagelD 1267.)

Becton is barred from filing another post-conviction petition because of Tennessee’s one-year
statute of limitations and its “one petition” rule. Tenn. Code Ann. §§ 40-30-102(a), (c). Because
there is no longer any means of exhausting this aspect of sub-claim (ii), it is barred by procedural
default.
Becton raised his attorney’s failure to call his alibi witness in a post-conviction petition.
(ECF No. 22-14 at PagelD 1175 (failure to present an alibi defense).) At the post-conviction
hearing, Becton complained that his attorney failed to interview and call someone he knew only
as “Ann” or “Auntie,” who he described as an alibi witness. (ECF No. 22-16 at PagelD 119899.) Becton did not know Ann’s address, but he knew that “she had stayed in the vicinity where
everything supposed to had happened at.” (Id. at PagelD 1200.) He testified that “[a]ll the
[defense] investigator had to do was go over there and ask anybody who was standing out. They
would have pointed out where Ann stayed at.” (Id. at PagelD 1221). Becton claimed that he was
able to identify Ann’s house. (Id.) Becton indicated he informed his lawyer about his alibi
witness, but counsel “just wouldn’t do nothing about it. He wouldn’t move on it.” (Id. at PagelD
21

1198; see also id. at PagelD 1208 (counsel “wouldn’t even go out there and get her, wouldn’t even
talk to her”).) Becton claims that his attorney said that Ann “wouldn’t be a good witness.” {Id.)
According to Becton, Ann was smoking crack with him and the victim the afternoon of the
rapes. {Id. at PagelD 1199, 1207-08,1214.) Becton belies that, if counsel had interviewed Ann,
the jury would have learned that the victim was a crack user. {Id. at PagelD 1201.) Becton
conceded that Ann was not present when he had (what he contends was consensual) sex with the
victim. {Id. at PagelD 1215.)4 Although he gave a voluntary statement to the police, Becton
admitted that he said nothing about Ann to the police. (ECF No. 22-14 at PagelD 1212-13.) Ann
did not testify at the post-conviction hearing. {Id. at PagelD 1217.)
Becton’s attorney, Lawrence Russell White, testified that “I have a vague recollection of
him telling me about somebody that they had smoked pot [with], but the thing about it was there
was no witness that was there when he had consensual sex.” {Id. at PagelD 1228.) White did
not believe that Ann would have been allowed to testify that the victim was known as “a prostitute
and a street whore.” {Id.) Ann might have been able to testify that the victim used drugs, but the
victim admitted that in her testimony. {Id. at PagelD 1229.) Ultimately, White concluded that
“this person would not do any good because they were not there to see what happened” when the
events at issue occurred. {Id. \ see also id. at PagelD 1231 (“[W]e didn’t have an alibi witness.
We didn’t have a witness that could testify as to what happened that night. That was in there that
could say, yeah, I was smoking crack in the room while they were having sex. Or I was smoking
crack in the room while he was beating her or raping her.”)

4 The defense presented no proof at trial and, consequently, made no argument that Becton
and the victim had consensual sex. See State v. Becton, 2013 WL 967755, at * 17.
22

Becton also raised his claim that counsel failed to hire DNA and sexual-assault experts in
a post-conviction petition.

(ECF No. 22-14 at PagelD 1175, 1176.) At the post-conviction

hearing, Becton testified that he wanted an expert witness to testify about the injuries the victim
claimed to have incurred but his attorney relied on the State’s experts. (ECF No. 22-16 at PagelD
1204-05.) Consequently, one witness allegedly explained the absence of bruises on the victim by
testifying that “black folks don’t bruise.” (Id. at PagelD 1205.) Becton also complained that
DNA testing had not been performed on his clothing, the knife, and the crime scene. (Id.)
White testified that the case boiled down to “his word versus her word and circumstantial
evidence, and I felt the circumstantial evidence was weak.”

(Id. at PagelD 1232.)

White

attempted to impeach the victim with inconsistencies between her trial testimony and her prior
statements. (Id. at PagelD 1234-36, 1239-41, 1242-43.) The DNA evidence presented by the
State was largely favorable to Becton. White recalled that “the DNA evidence excluded [Becton]
from the panties [the victim] was wearing that night. And I pointed that out to the jury.” (Id. at
PagelD 1233.) The most incriminating DNA evidence from the penile swab “could have been
thousands of people in our community that made that combination.” (Id. at PagelD 1232.)
Defense counsel also made the point that none of the items found in the house had been tested.
(Id. at PagelD 1241.) The defense “got all that in front of the jury, all the inconsistencies”
between the victim’s trial testimony, her previous statements, and the physical evidence. (Id. at
PagelD 1232.)
The post-conviction court denied relief. (Id. at PagelD 1252-60.) Becton raised these
parts of sub-claim (ii) in his brief to the TCCA on the post-conviction appeal. (ECF No. 22-17 at
PagelD 1267, 1272-76.) The TCCA affirmed. Becton v. State, 2015 WL 3867758, at *4.
23

Becton’s claim that his attorney rendered ineffective assistance, in violation of the Sixth
Amendment, is controlled by the standards stated in Strickland v. Washington, 466 U.S. 668
(1984), which require a showing that “counsel’s performance was deficient” and that “the deficient
performance prejudiced the defense.” Id. at 687. To establish deficient performance, a person
challenging a conviction “must show that counsel’s representation fell below an objective standard
of reasonableness.” Id. at 688. A court considering a claim of ineffective assistance must apply
a “strong presumption” that counsel’s representation was within the “wide range of reasonable
professional assistance.” Id. at 689. The challenger’s burden is to show “that counsel made
errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the defendant by the
Sixth Amendment.” Id. at 687. “The question is whether an attorney’s representation amounted
to incompetence under ‘prevailing professional norms,’ not whether it deviated from best practices
or most common custom.” Richter, 562 U.S. at 105 (quoting Strickland, 466 U.S. at 690).
To demonstrate prejudice, a prisoner must establish “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694. “A reasonable probability is a probability sufficient to undermine
confidence in the outcome.” Id. “It is not enough to show that the errors had some conceivable
effect on the outcome of the proceeding.. Counsel’s errors must be so serious as to deprive the
defendant of a fair trial, a trial whose result is reliable.” Richter, 562 U.S. at 104 (internal
quotation marks and citation omitted); see also id. at 111-12 (“In assessing prejudice under
Strickland, the question is not whether a court can be certain counsel’s performance had no effect
on the outcome or whether it is possible a reasonable doubt might have been established if counsel
acted differently. . . .

The likelihood of a different result must be substantial, not just
24

conceivable.”) (citations omitted); Wong v. Belmontes, 558 U.S. 15, 27 (2009) (per curiam) (“But
Strickland does not require the State to ‘rule out’ [a more favorable outcome] to prevail. Rather,
Strickland places the burden on the defendant, not the State, to show a ‘reasonable probability’
that the result would have been different.”).
The deference to be accorded a state-court decision under Strickland is magnified when
reviewing an ineffective assistance claim under 28 U.S.C. § 2254(d):
Establishing that a state court’s application of Strickland was unreasonable
under § 2254(d) is all the more difficult. The standards created by Strickland and
§ 2254(d) are both “highly deferential,” id., at 689; Lindh v. Murphy, 521 U.S. 320,
333, n. 7 (1997), and when the two apply in tandem, review is “doubly” so, Knowles
[v. Mirzayance], 556 U.S., [111,] 123 [(2009)]. The Strickland standard is a
general one, so the range of reasonable applications is substantial. 556 U.S., at
Federal habeas courts must guard against the danger of equating
123.
unreasonableness under Strickland with unreasonableness under § 2254(d). When
§ 2254(d) applies, the question is not whether counsel’s actions were reasonable.
The question is whether there is any reasonable argument that counsel satisfied
Strickland's deferential standard.
Richter, 562 U.S. at 105 (parallel citations omitted).
Becton cannot establish that the TCCA’s decision was contrary to Strickland. The TCCA
cited Strickland, Tennessee decisions applying Strickland, and a Tennessee decision that predates,
and is not inconsistent with, Strickland. Becton v. State, 2015 WL 3867758, at *3-4. This is a
mn-of-the-mill decision applying the correct legal rule to the facts of a prisoner’s case and,
therefore, the “contrary to” clause of § 2254(d)(1) is inapplicable.
Becton also cannot demonstrate that the TCCA’s decision was an unreasonable application
of Strickland or that it was based on an objectively unreasonable factual finding. In affirming the
post-conviction court’s denial of relief, the TCCA reasoned as follows:
In our view, the record supports the post-conviction court’s denial of relief.
[Becton] failed to present either “Ann” or an expert witness at the evidentiary
25

hearing. As such, we cannot speculate what either witness might have testified to
at trial. See Black v. State, 794 S.W.2d 752,757 (Term. Crim. App. 1990) (“When
a petitioner contends that trial counsel failed to discover, interview, or present
witnesses in support of his defense, these witnesses should be presented by the
petitioner at the evidentiary hearing.”). [Becton] encourages this court to depart
from this firmly-held rule, arguing that trial counsel’s failure to procure the
requested witnesses should not be held against [him]. This argument fails for two
reasons. First, that trial counsel did not present the testimony of witnesses
requested by [Becton] at trial does nothing to change the fact that [Becton] failed
to present the testimony of those witnesses at the post-conviction evidentiary
hearing, as required by Black. Second, trial counsel’s reasoning for not calling
these witnesses—that “Ann” would not have provided [Becton] with an alibi and
that the DNA evidence presented by the State was already sparse—was a
“reasonably based trial strategy” that we will not “second-guess.” See Adkins [v.
State], 911 S.W.2d [334,] 347 [(Tenn. Crim. App. 1994)]. As such, we hold
[Becton] has failed to prove by clear and convincing evidence that trial counsel’s
representation was deficient or prejudicial.
Becton v. State, 2015 WL 3867758, at *4.
Becton has not demonstrated that the TCCA’s decision was an objectively unreasonable
application of Strickland. Trial counsel decided not to interview or call “Ann” because she had
no personal knowledge about whether Becton raped the victim and her testimony about the
victim’s character would have been inadmissible or was cumulative to evidence in the record.
Counsel did not present expert testimony because the State’s testimony was not significantly
probative of guilt. “Strategic choices made after thorough investigation of law and facts relevant
to plausible options are virtually unchallengeable . . . .”

Strickland, 466 U.S. at 690. Becton

does not argue that his attorney overlooked any relevant fact or that he was unfamiliar with the
law.
Becton also has not established that the TCCA’s decision was based on an objectively
unreasonable factual determination.

The TCCA found that Becton could not show deficient

performance or prejudice because neither “Ann” nor any expert witness testified at the post26

conviction hearing. Becton does not dispute that fact. The TCCA’s conclusion that, in the
absence of such testimony, it was in no position to assess either prong of the Strickland standard
is not objectively unreasonable.
Becton argues, at length, that it is unfair to require indigent criminal defendants to shoulder
the expense of hiring expert witnesses.

(ECF No. 37 at 7-12.)

However, Becton has not

explained how this alleged unfairness should affect the Court’s review of his claim. The post­
conviction court and the TCCA adjudicated these sub-claims on the merits. Richter, 562 U.S. at
99. Therefore,
review under § 2254(d)(1) is limited to the record that was before the state court
that adjudicated the claim on the merits. Section 2254(d)(1) refers, in the past
tense, to a state-court adjudication that “resulted in” a decision that was contrary
to, or “involved” an unreasonable application of, established law. This backward­
looking language requires an examination of the state-court decision at the time it
was made. It follows that the record under review is limited to the record in
existence at that same time[,] i. e., the record before the state court.
Pinholster, 563 U.S. at 181-82.
The Sixth Circuit Court of Appeals has construed Pinholster as prohibiting district courts
from holding evidentiary hearings on claims that have been adjudicated on the merits in state court.
Ballinger v. Prelesnik, 709 F.3d 558, 561 (6th Cir. 2013). This rule applies even where the statecourt record is deficient through no fault of the prisoner. The Court of Appeals explained that,
“[wjhile allowing a petitioner to supplement an otherwise sparse trial court record may be
appealing, especially where he diligently sought to do so in state court, the plain language of
Pinholster and Harrington precludes it.” Ballinger, 709 F.3d at 562. The Court of Appeals cited
with approval a decision by the First Circuit, which “rejected the petitioner’s claim that the state
court’s decision was not on the merits because he had not received a full and fair evidentiary
27

/

hearing.” Id. (citing Atkins v. Clarke, 642 F.3d 47, 49 (1st Cir. 2011) (internal quotation marks
omitted). The Sixth Circuit also observed that its previous decision in Brown v. Smith, 551 F.3d
424, 428-29 (6th Cir. 2008), which held that a state-court adjudication was not “on the merits”
because a document relevant to the prisoner’s claim was not presented to the state courts, “is no
longer the law.” Ballinger, 709 F.3d at 561-62.
There is a limited class of cases in which deficiencies in state procedures undermine the
validity of the state-court decision. In Panetti v. Quarterman, 551 U.S. 930, 948 (2007), the
Supreme Court held that “no deference [was] due” to a state court’s adjudication of a prisoner’s
claim that he was not competent to be executed because “[t]he state court’s failure to provide the
procedures mandated by Ford [v. Wainwright, All U.S. 399 (1986),] constituted an unreasonable
application of clearly established federal law as determined by this Court.” The Supreme Court
concluded that, “[w]hen a state court’s adjudication of a claim is dependent on an antecedent
unreasonable application of federal law, the requirement set forth in § 2254(d)(1) is satisfied. A
federal court must then resolve the claim without the deference AEDPA otherwise requires.”
Panetti, 551 U.S. at 948.
The Panetti exception to the rule announced in Pinholster and Richter is narrow. In Loza
v. Mitchell, 766 F.3d 466, 494 (6th Cir. 2014), the petitioner argued that his claim that he was
selectively prosecuted for capital offenses was not adjudicated on the merits in state court because
“he tried to develop his claim in state court, but the state court denied him an evidentiary hearing,
which .. . violated his due process rights.” The Sixth Circuit rejected that argument, explaining
that
Loza’s case is distinguishable from Panetti. Loza does not demonstrate that [the]
Ohio Court of Appeals’s decision that he did not satisfy the requirements for an
28

evidentiary hearing on a selective prosecution claim was contrary to or an
unreasonable application of [United States v.] Armstrong[, 517 U.S. 456 (1996)].
There is no indication that the court’s ruling violated Loza’s rights.
766 F.3d at 494-95.
In order to apply de novo review because of deficiencies in the state-court procedures, the
Court must first conclude that Becton had a constitutional right to appointment of an expert in his
post-conviction proceeding. However, there is no clearly established federal law that would
require Tennessee to fund expert services for post-conviction petitioners. A federal court cannot
use a habeas proceeding as a vehicle to announce a new rule of constitutional criminal procedure.
Teague v. Lane, 489 U.S. 288, 316 (1989).
Becton also has no valid argument that his post-conviction counsel rendered ineffective
assistance by failing adequately to present sub-claim (ii) to the state courts.

“There is no

constitutional right to an attorney in state post-conviction proceedings. Consequently, a petitioner
cannot claim constitutionally ineffective assistance of counsel in such proceedings.” Coleman,
501 U.S. at 752 (citations omitted). The Supreme Court’s decision in Martinez v. Ryan, 566 U.S.
1 (2012), which provides a means for habeas petitioners to avoid a procedural default that was
caused by the ineffective assistance of counsel, has no bearing on this case.

Martinez is

inapplicable because Becton did not procedurally default his claim that trial counsel failed to hire
expert witnesses or to call “Ann” at trial. Martinez does not apply to claims that were raised, but
not properly litigated, by post-conviction counsel because those claims have not been procedurally
defaulted.

West v. Carpenter, 790 F.3d 693, 699 (6th Cir. 2015); Dixon v. Houk, 737 F.3d 1003,

1012 & n.2 (6th Cir. 2013); Moore v. Mitchell, 708 F.3d 760, 784-85 (6th Cir. 2013). Because
these aspects of sub-claim (ii) were exhausted in state court, Martinez is inapplicable. Therefore,
29

Becton has not satisfied the stringent standards for overturning a state-court decision on the merits
of the exhausted portions of sub-claim (ii).
For all the foregoing reasons, Claim 1 is without merit and is DISMISSED.
D.

Cumulative Error (Claim 4)

In Claim 4, Becton argues that he is entitled to habeas relief due to cumulative errors that
occurred during his trial, including the ineffective assistance of counsel, prosecutorial misconduct,
and judicial bias issues presented in Claims 1, 2, and 3. (ECF No. 1-1 at PagelD 53-55.) In his
Answer, the Warden argues that the doctrine of cumulative error has not been recognized in habeas
cases. (ECF No. 23 at 28.) The Court agrees. Cumulative error is not a viable constitutional
claim under 28 U.S.C. § 2254. Lorraine v, Coyle, 291 F.3d 416, 447 (6th Cir. 2002) (“The
Supreme Court has not held that distinct constitutional claims can be cumulated to grant habeas
relief.”), amended on other grounds, 377 F.3d 459 (6th Cir. 2002); see also Gillard v. Mitchell,
445 F.3d 883, 898 (6th Cir. 2006) (same); Moore v. Parker, 425 F.3d 250, 256 (6th Cir. 2005)
(same). In addition, the Court has rejected the substantive claims on the merits or as barred by
procedural default.
Claim 4 is without merit and is DISMISSED.

Because every claim asserted by Becton is without merit, the Court DENIES the § 2254
Petition. The § 2254 Petition is DISMISSED WITH PREJUDICE. Judgment shall be entered
for Respondent.

30

\ *

III.

APPEAL ISSUES
There is no absolute entitlement to appeal a district court’s denial of a § 2254 petition.

Miller-El v. Cockrell, 537 U.S. 322, 335 (2003); Bradley v. Birkett, 156 F. App’x 771, 772 (6th
Cir. 2005). The Court must issue or deny a certificate of appealability (“COA”) when it enters a
final order adverse to a § 2254 petitioner. Rule 11, § 2254 Rules. A petitioner may not take an
appeal unless a circuit or district judge issues a COA. 28 U.S.C. § 2253(c)(1); Fed. R. App. P.
22(b)(1).
A COA may issue only if the petitioner has made a substantial showing of the denial of a
constitutional right, and the COA must indicate the specific issue or issues that satisfy the required
showing. 28 U.S.C. §§ 2253(c)(2) & (3). A “substantial showing” is made when the petitioner
demonstrates that “reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues presented were adequate
to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 336 (internal quotation
marks omitted); see also Henley v. Bell, 308 F. App’x 989,990 (6th Cir. 2009) (per curiam) (same).
A COA does not require a showing that the appeal will succeed. Miller-El, 537 U.S. at 337;
Caldwell v. Lewis, 414 F. App’x 809, 814-15 (6th Cir. 2011). Courts should not issue a COA as
a matter of course. Bradley, 156 F. App’x at 773.
In this case, there can be no question that the § 2254 Petition is meritless for the reasons
previously stated. Because any appeal by Petitioner on the issues raised in his § 2254 Petition
does not deserve attention, the Court DENIES a certificate of appealability.
Rule 24(a)(1) of the Federal Rules of Appellate Procedure provides that a party seeking
pauper status on appeal must first file a motion in the district court, along with a supporting
31

i

Additional material
from this filing is
available in the
Clerk's Office.

